JUDY RABINOVITZ

SPECIAL COUNS EL
IMMIGRANTS’ RIGHTS PROGRAM
T/ 212.549. 2618
JRABINOVITZ@ACLU.ORG

November 23, 2020
The Honorable Scott S. Harris
Clerk of the Court
Supreme Court of the United States
One First Street, N.E.
Washington, DC 20543
Re: Wolf v. Innovation Law Lab, No.19-1212
Dear Mr. Harris:
I represent the Respondents in the above-captioned case. On behalf of all
the parties, I write to request a slight modification of the briefing schedule, set
forth below. The requested modification will preserve the Court’s ability to hear
oral argument in the case on any day during the Court’s February sitting:
National Office
125 Broad Street,
18th Floor
New York, NY 10004
Tel: (212) 549-2644
Fax: (212) 549-2644
aclu.org
Susan N. Herman
President
Anthony D. Romero
Executive Director
Richard Zacks
Treasurer

Government’s opening brief: Tuesday, December 8 (45 days +5)
Respondents’ brief: Wednesday, January 13 (30 days +6)
Government’s reply brief: Friday, February 12 (30 days)
Petitioners have agreed to this schedule and join in this request. If you
need additional information, please let me know. We appreciate your time and
assistance.
Respectfully,
Judy Rabinovitz
Counsel for Respondents

Cc: Jeffrey B. Wall, Acting Solicitor General, SupremeCtBriefs@usdoj.gov
Denise McNerney, Deputy Clerk, dmcnerney@supremecourt.gov

